.;T

H-A

iJilllik
Supremo Court, U.S.
FILED

IN THE
SUPREME COURT OF THE UNITED STATES
•kJeleJsJejeis’k’kielsieJeis’kJc

AUG 2 0 2021
OFFICE OF THE CLERK

Prayed - PETITIONER
vs.
United States Department of Labor, et al. - RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
Prayed
P.O. Box 81834
Fairbanks, AK, 99708-1834
(907) 460-8395

"

QUESTION PRESENTED
In this case specifically, has the Petitioner’s substantive rights been abridged, a
violation of 28 USC 2072 (b), by the Court rules and procedures effecting encroachment
of an American’s First, Fifth, Ninth, and Tenth Amendment guarantees vested within our
Constitution for the United States of America, thereby impeding his service to this nation
advancing argument promoting the creation of positive law in matters of first impression
relevant to the Labor Management and Reporting Disclosure Act of 1959, As Amended
(LMRDA), and to fairness standards and nondiscriminatory safeguards for an employee
when Union leadership, as the “exclusive representative”, receives the majority of their
respective income from the employer, and to the responsibility vested in the Court to
administer adherence and remedy inequitable conduct by inferior courts as pertains to
existing rules of practice and procedures constituting good Behavior when holding office
or is it most appropriate that these important issues need be reviewed and resolved by this
Court?

b-

x

LIST OF PARTIES
All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is as
follows:
> UNITED STATES DEPARTMENT OF LABOR, Secretary ofLabor Martin J.
Wdlsh - Respondent
> ALASKA RAILROAD WORKERS LOCAL 183 - Respondent
> BRUCE M. SHELT, Interim President Local No. 183 - Respondent
> ALASKA RAILROAD CORPORATION - Respondent

*

RELATED CASES

i

The ramification of this case could extend to any civil issue involving
Labor/Management Relations wherein the Union serves as the exclusive representative
for employees and the Union leadership’s majority percentage of income results from

-i

3

employment with the company. No case is “directly related”.

I
¥'
v.

;

1:
f

k

i

TABLE OF AUTHORITIES CITED
CASES
Crolwey, 467 U.S. at 528

9

STATUTES AND RULES
Federal Rules of Procedure (FRCP) 6(a)(4)

7

FRCP Rule 83

7

Labor-Management Reporting and Disclosure Act of 1959, As Amended, (LMRDA), As
Amended

2,8

Title 1, LMRDA

3

Title IV, Sec 403, (29 USC 483)

2,9

28 USC 2072(a)

9

28 U.S.C. 2072(b)

3

29 U.S.C. 401 & 402

7

29 U.S.C. 402, SEC. 3. (Q

8

29 U.S. Code § 412

3

29 USC 413

2

29 USC 481-82, 521

9

29 USC 483

2, 8,9

OTHER
First Amendment to Constitution for the United States of America

1,8

Fifth Amendment to Constitution for the United States of America,

1,7,8

Ninth Amendment to Constitution for the United States of America

2,8

Tenth Amendment to Constitution for the United States of America

2,8

1
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
The opinion of the United States court of appeals appears at Appendix A to the
petition and is unpublished.
The opinion of the United States district court appears at Appendix B to the
petition and is unpublished.
JURISDICTION
The United States Court of Appeals for the Ninth Circuit decided my case with a
Mandate and Memorandum indicating judgment entered March 23rd, 2021. The
jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
CONSTITIONAL & STATUTORY PROVISIONS INVOLVED
First Amendment to Constitution for the United States of America:
“Congress shall make no law... abridging the freedom ofspeech, ... and to
petition the governmentfor a redress ofgrievances.'’’
Fifth Amendment to Constitution for the United States of America:
‘Wo person shall... be deprived of life, liberty, or property, without due process of
law"

1

2
Ninth Amendment to Constitution for the United States of America:
“The enumeration in the Constitution, of certain rights, shall not be construed to
deny or disparage others retained by the people. ”
Tenth Amendment to Constitution for the United States of America:
“The powers not delegated to the United States by the Constitution, nor
prohibited by it to the States, are reserved to the States respectively, or to the people. ”
Labor-Management Reporting and Disclosure Act of 1959, As Amended, (LMRDA),
As Amended
See Appendix C
Title IV, Sec 403, (29 USC 483)
"... The remedy provided by this subchapter for challenging an election already
conducted shall be exclusive. ”
29 USC 413
Nothing contained in this subchapter shall limit the rights and remedies of
any member ofa labor organization under any State or Federal law or
before any court or other tribunal, or under the constitution and bylaws of
any labor organization.
29 USC 483
The remedy provided by this title for challenging an election already conducted
shall be exclusive.
STATEMENT OF THE CASE
This case is not deemed to have statutory standing by the district court, but that is
an area that Petitioner still disagrees and argues jurisdiction vests within the LMRDA.
Recognizing this statutory challenge early on, the basis for federal jurisdiction was
asserted as residing within ffieConstitufion of the'United'States^of“America-with-

2

3
emphasis upon Amendment I, Amendment IX, and Amendment X. Thus prompting a
Notice of Constitutional Question invoking 28 U.S.C. 2072(b) to preserve a lawful
challenge because legal expertise does not individually vest with the Petitioner.
As a legal neophyte, I readily struggled in the on-the-job format wherein the
opponents’ counsels as well as the orders of the court serve to be instructive. Perhaps
the greatest impediment became the CoVid pandemic, as access to the law library was
lost altogether and still limited. Yet, the Petitioner was experiencing great hardship from
a most unfortunate problem that needed pursued.
Thus jurisdiction also extends from the legal position that the USDOL was
stating, that it cannot intervene in a Title 1, LMRDA scenario, which does seem arbitrary
and capricious absent case precedent but none-the-less it became the Petitioner’s burden
to bear if clarity and greater effectiveness in LMRDA’s is to emerge, by illustrating that it
never was in a Title 1, LMRDA scenario, but the agency is not assuming its full
legislated enforcement authority under Title IV.
Another area of challenge is the obfuscating entity’s relationship as a public
corporation to the people, but that is a distinctly different federal case. But the ARRC
does not exist as part of the state’s governing structure, yet here it is best to simply
understand that it exists as the employer. Consequently ARW and the actions of
employees of ARRC have become intertwined and subject to a complaint asserting civil
action for infringement of rights; where jurisdiction resides in 29 U.S. Code § 412.
Comprehensively, the record established between the District Court and the
Appeals Court can verify the following history succinctly:

3

4
1) On October 9th, 2015, at 4:22 PM, Alaska Railroad Corporation (ARRC)
employee, Bruce Shelt, failed to advance the Alaska Railroad Workers Local 183,
AFGE/AFL-CIO Executive Board’s directive for him as Union president to
advance arbitration on behalf of Petitioner Prayed as related to Grievance 201506. The deadline for timely filing was at 5:00 PM that same day. Please see
District Court Docket (D.C.Dk #31-25).
2) Argument was made that Title I retaliatory claims prior to September 25, 2015 are
barred by applicable statute of limitations is stipulated to by Petitoner Prayed as
Shelt’s failure to advance arbitration to preserve Prayed’s employed position with
ARRC is within that window (D.C.Dk # 57, p. 16).
3) On December 3rd 2015, Petitioner Prayed filed a complaint to the Union formally
asserting charges against Shelt in accordance with the Constitution and Rules of
the American Federation of Government employees (D.C.Dk #31-24).
4) This failure by ARRC employee Bruce Shelt to perform his Union President’s
responsibility created many major disagreements with Mr. Prayed. Another was
impeding an active grievance investigation by failing to defend Petitioner
Prayed’s rail yard access via ARRC’s Director of Labor Relations Debra English
on March 10th 2016. (D.C.Dk # 31-26 & # 54, Exh. C,). “Additionally, President
Shelt accepted the action, without grievance or argument protecting access or
inspection to the work sit for safe guarding member’s work environment by Mr.
Prayed, the only ARW union officer for the northern half of the railroad” (9th
Circuit Appeals Docket (9thDk #11, Exhibit K)

4

5
5) Election of Union Officers held on November 17th 2016, plagued with LMRDA
violations, Petitioner Prayed formally files Election Protest alleging 31 violations
(D.C.Dk #32).
6) From phone calls from other Union members, Petitioner Prayed predicts Shelf s
retaliatory action prior to its occurrence to alter Prayed’s membership in-goodstanding status, as may be observed in FAX Transmittal cover page to the U.S.
Department of Labor (USDOL) Office of Labor Management Standards
communicating a 114 page “Complaint protesting illegal election of union
officers” on February 27th 2017 (D.C.Dk # 32-6).
7) April 11th 2017, Shelt uses his position to influence the Executive Board in a first
attempt to terminate Petitioner Prayed’s membership with false assertions that can
be refuted with other evidence on record and statement by USDOL that Prayed
remains a member-in-good standing (D.C.Dk # 32-7).
8) OLMS finds merit in Petitioner Prayed’s complaint of invalid election procedural
adherence with standards codified by LMRDA and secures a Voluntary
Compliance Agreement. Prayed invited by USDOL to attend June 1st 2017 PreElection Conference (D.C.DK #32-10).
9) While Prayed is vetted by USDOL, as a member-in-good standing via
examination of both AFGE and ARW doctrine (see 9thDk #11, Exhibit C), and
actively on the ballot running for Union President (Id, Exhibit E & F) in the
USDOL “supervised” election, a small constituency of 25 ARW members led by
Shelt, out of the 282 members within the Union dispersed over 600 miles of rail
road, performed a simple voice vote on August 3rd 2017, absent procedural

5

6
guidelines stipulated by the ARW’s Constitution, Article X, “Offenses, Trials,
Penalties, Appeals”, Section 1 stating, “All offenses, trials, penalties, and appeals
shall be accomplished in accordance with the AFGE National Constitution. See
AFGE National Constitution, Article IX, Section 5 and Article XXIII” (See
D.C.DK #31-7, p.8, and view the AFGE Constitution, Article XXIII, Offenses,
Trials, Penalties, Appeals (D.C.Dk # 50, Exhibit G)). Then Shelt and associates
broadcast Petitioner Prayed’s illegitimate expulsion via the teleconference
monthly meetings (August 3rd 2017 & September 7th 2017) while ballots are out
and before returned (D.C.Dk # 50, Exhibit H) for counting September 28th, 2017
(D.C.Dk #32-15), a later date than planned because USDOL had to remedy
another procedural flaw in the supervised election.
10) After the illegal expulsion event detailed by Prayed’s affidavit (D.C.Dk # 57-7),
Shelt continued to control the teleconference access to monthly railroad
membership meetings, by actively blocking or directing Prayed be blocked from
Fairbanks call-in participation in all future attendance in membership meetings.
“This telephonic call-in participation to the ARW General Membership is a right
codified within the Local Bylaws, Article 1 Local Membership Meetings,
SECTION 2(b) (see D.C.Dk #31-7, p. 9 & # 57-7).
11) While Petitioner Prayed technically remained a member-in-good standing with
dues payment credited ahead of schedule, and the ARW Secretary, Jeonghee
Schlotisek, instructed not to communicate with him (D.C.Dk #57-1), northern
ARW member, Jeremy Bahr, contacted Prayed on May 1st 2018 with an email
example of continued abuse of power by Shelt implementing new and unlawful

6

7
bylaws. Shelt stating, “After minimal discussion, a voice vote will be held for
those that attend, and that vote will determine final pass/fail” (D.C.Dk #32-19). A
blatant disregard of ARW’s Standard Local Constitution, Article XI, Sec. 3,
wherein, “Bylaws shall be adopted and amended only after one month notice to
the local’s membership and by two-thirds vote of members, either present at a
membership meeting and voting, with a provision for absentee vote, or by mail
ballot” (D.C.Dk #31-7, p. 8). There should be no doubt that Petitioner Prayed
and ARRC employee Bruce Shelt did have contentious disagreements over
Shelt’s leadership, and Shelt’s lack of integrity including the retaliatory behavior.
12) Lastly, Petitioner Prayed’s advanced his civil complaint to the federal district
court of Alaska on September 25, 2017 (D.C.Dk #1), whereby Prayed’s continued
pursuit of fairness brings forth conflict that the Appeals Court cares not or lacks
authority as pertains to Rules of the Court review (Appendix A, p.4). Paper filers
are not availed equal rights with electronic filers per Federal Rules of Procedure
(FRCP) 6(a)(4); and, the district court did not furnish public notice for public
comment or enacting Local Rule changes per FRCP Rule 83, (D.C.Dk #62,
Exhibit A). And Fifth Amendment protections for due process in monies as
taxed (9thDk Exhibit L). Prayed consciously states these concerns for this
Court’s awareness and wisdom in review.
REASONS FOR GRANTING THE PETITION
"Controlling only a percentage of the evils abusing the election environment
creates a public disservice, repudiates the standing of the DOL, and alienates the
intent of Congress to control toxic elements, as derived by 29 U.S.C. 401 & 402, its

7

8

impact vexatious upon commerce" (D.C.Dk #31, p. 5). Therein lies the beauty of the
Court and my responsibility to constitutionally challenge by First, Fifth, Ninth, and
Ten Amendments, argument through sovereign American voice, perfecting our
Congressional legislation as embodied within LMRDA.
But please understand, this case and controversy has come at a significant
cost and hardship to the Petitioner, and thus LMRDA can be fortified by the Court's
ruling coherently with the existing codification with some clarifying interpretation.
The LMRDA definition establishes that an "'Employee', means any individual
employed by an employer, and includes any individual whose work has ceased as a
consequence of... or because of exclusion or expulsion from a labor organization in
any manner or for any reason inconsistent with the requirements of this Act" (29
U.S.C. 402, SEC. 3. (f)).
Thus, the Petitioner’s "exclusive representative", the ARW, led by an ARRC
employee Bruce Shelt, who failed to arbitrate Prayed's forced "voluntary
termination", confronted Shelt about numerous unlawful actions, one of which
invoked the USDOL presence to conduct a "supervised” election. Under this LMRDA
Title IV responsibility (29 USC 483) assumed by the USDOL, "The remedy provided
by this title for challenging an election already conducted shall be exclusive."
Therefore, once the USDOL had "exclusive authority", as witnessed by the May 9th
2017 execution of the Voluntary Compliance Agreement reserving their legal
authority until October 31,2017, for remedy of the past, procedurally flawed,
original election of November 17th 2016, this Title IV supervised election of

8

9
September 28th, 2017 is an excepted event! No Title I provision can be triggered in
that timeframe but remedy with the USDOL becomes exclusive.
Consequently, USDOL’s conduct was arbitrarily incongruent with the
codification vested in LMRDA Title IV, at 29 USC 483. "Title IV, in contrast,
provides an elaborate postelection procedure aimed solely at protecting union
democracy through free and democratic elections, with primary responsibility for
enforcement lodged with the Secretary of Labor" (29 USC 481-82,521, See also
Crolwey, 467 U.S. at 528). So which party was a greater fail of their exclusive
responsibility. I argue the USDOL, as Shelt can be held accountable, but the national
responsibility must be examined and remedied by this Court.
CONCLUSION
Thus the United States court of appeals did not decide an important question
of federal law that should be settled by this Court as it is a matter of first impression
and has national ramifications to existing application of the LMRDA by the USDOL,
the gravity of Union leadership financially reliant on the employer as primary
source of income in Labor/Management Relations for exclusive representation, and
review and potential remedy of rules of Court as is their national responsibility per
28 USC 2072(a). The petition for a writ of certiorari should be granted.
Submitted with Love and Respect,

Date:

T*

f 2

I
9

